 OFFICE OF AUDIT
 REGION 9
 LOS ANGELES, CA




     Real Estate-Owned Management & Marketing
             III Program, Washington, DC




2012-LA-0003                        SEPTEMBER 18, 2012
                                                        Issue Date: September 18, 2012

                                                        Audit Report Number: 2012-LA-0003




TO:            Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU



FROM:          Tanya E. Schulze, Regional Inspector General for Audit, Los Angeles Region,
               9DGA


SUBJECT:       HUD Did Not Always Enforce REO M&M III Program Requirements


    Enclosed is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General (OIG), final results of our review of HUD’s Office of Single Family
Housing’s oversight of its real estate-owned Management and Marketing III program.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov. Please note that the OIG determined that some contents of this audit
report would not be appropriate for public disclosure and those items have been redacted from
this report.

   If you have any questions or comments about this report, please do not hesitate to call me at
213-534-2471.
                                            September 18, 2012
                                            HUD Did Not Always Enforce REO M&M III Program
                                            Requirements




Highlights
Audit Report 2012-LA-0003


 What We Audited and Why                     What We Found

We audited the U.S. Department of           HUD did not have adequate procedures in place to
Housing and Urban Development’s             ensure consistent and adequate enforcement of asset
(HUD) oversight of its real estate-         and field service manager contracts. Specifically, (1)
owned (REO) Management and                  list prices were not always reduced according to the
Marketing (M&M) III program in              marketing plans, (2) bids were approved that did not
response to a HUD, Office of Inspector      meet HUD’s flexible threshold, (3) bids were rejected
General (OIG) auditability survey on        that met the marketing plan thresholds, (4) bids that
REO contract administration and as part     met applicable thresholds were not always counter
of OIG’s fiscal year 2012 annual audit      offered or forwarded to the government technical
plan.                                       representative for approval, and (5) properties were not
                                            assigned to field service managers based on
                                            performance even when HUD identified performance
 What We Recommend
                                            issues. In addition, HUD did not always pay field
                                            service managers in accordance with their contracts,
We recommend that the Deputy                resulting in an estimated net underpayment of
Assistant Secretary for Single Family       $553,784 to field service managers.
Housing (1) develop and implement
policies and procedures for oversight of
the M&M III program, procedures to
ensure that field service managers are
paid only for routine inspections that
are conducted, and procedures for the
P260 system to ensure that bids meeting
applicable thresholds based on the listed
and appraised values are accepted; (2)
review the P260 system and its related
controls; (3) finalize and implement the
field service manager scorecard; (4)
reimburse or request repayment for the
field service managers that were
underpaid or overpaid; and (5) ensure
that HUD receives repayment for
routine inspections that were not
conducted by field service managers.
                            TABLE OF CONTENTS


Background and Objective                                                 3

Results of Audit

Finding:   HUD Did Not Always Enforce REO M&M III Program Requirements   5

Scope and Methodology                                                    17

Internal Controls                                                        19

Appendixes

   A. Schedule of Questioned Costs and Funds To Be Put to Better Use     20
   B. Detailed Results of OIG’s Review Sample                            21




                                            2
                           BACKGROUND AND OBJECTIVE

The Federal Housing Administration (FHA) administers the single-family mortgage insurance
program and insures approved lenders against the risk of loss on properties obtained with FHA-
insured financing. In the event of a default on an FHA-insured loan, the lender acquires title to
the property by foreclosure, a deed-in-lieu of foreclosure, or other acquisition method; files a
claim for insurance benefits and conveys the property to the U.S. Department of Housing and
Urban Development (HUD). As a result of acquisitions through the mortgage insurance program
and other programs, HUD needs to sell a sizable inventory of single-family homes, making HUD
the largest single seller of real estate in the United States.

Since 1999, HUD has outsourced the disposition of its real estate-owned (REO) inventory to
private-sector contractors under its Management and Marketing (M&M) program. In June of
2010, HUD awarded contracts under the third generation of M&M. Under previous generations
of M&M contracts, M&M contractors were responsible for both maintenance and marketing of
HUD’s REO properties. Under the M&M III program, these functions became separated. The
field service managers are responsible for property maintenance and preservation, and the asset
managers are responsible for the sale of the homes. Contracts were also awarded to an oversight
monitor and mortgagee compliance manager for the M&M III program; however, we did not
review these functions. The oversight monitor, whose contract was terminated, was responsible
for informing HUD of the performance of its REO portfolio and the mortgagee compliance
manager performs pre- and post-property conveyance services.

With the M&M III program, HUD introduced and implemented the P260 system, which is an
Internet based system that serves as the primary system of record for all REO case management
transactions. Asset and field service managers are required to scan and upload documents
relating to properties, such as inspection reports and photographs, so that HUD can track the
disposition activity from conveyance to sale. HUD administers the REO disposition program
through the four Homeownership Centers (Centers) located in Atlanta, GA, Denver, CO,
Philadelphia, PA, and Santa Ana, CA. Each Center is responsible for a designated geographic
area, with the four geographic areas divided into ten contract areas to award contracts to asset
and field service managers. There were 23 contracts awarded to asset managers and 31 contracts
awarded to field service mangers 1.

In the first two years of the M&M III program, HUD acquired 198,318 properties and sold
201,585. For the properties that were acquired and sold between June 1, 2010 and May 31,
2012, the average bid amount to the appraised as is value was 86 percent. 2




1
 Asset and field service managers that were awarded contracts in multiple contract areas were separate contracts.
2
 According to the Single Family Data Warehouse. In reviewing the data to determine the average net return, we
noted that the reported appraised as is value was based on the most recent appraisal. Therefore, in cases where an
updated appraisal was received and the property value either increased or decreased, the average net return was not
accurately reflected based on the original value.

                                                         3
                     Center                            Properties               Properties sold
                                                       acquired 3
                                       June 1, 2010, to May 31, 2011
                     Atlanta                             34,271                       26,545
                     Denver                              29,876                       25,744
                     Philadelphia                        22,379                       22,939
                     Santa Ana                           14,710                       12,472
                      Year 1totals                      101,236                       87,700
                                       June 1, 2011, to May 31, 2012
                     Atlanta                                33,009                    41,489
                     Denver                                 28,582                    33,061
                     Philadelphia                           22,387                    22,931
                     Santa Ana                              13,104                    16,404
                      Year 2 totals                         97,082                   113,885
                    Combined totals                         198,318                  201,585

Our audit objective was to determine whether HUD’s policies and procedures provided for
efficient and effective oversight of asset managers and field service managers under its M&M III
program.




3
 HUD provided data for the first year, including the number of properties that were acquired in the M&M II
program and were transitioned to the M&M III program.

                                                        4
                                       RESULTS OF AUDIT


Finding:          HUD Did Not Always Enforce REO M&M III Program
                  Requirements
HUD did not always enforce REO M&M III program requirements for asset managers and field
service managers. Also, HUD did not ensure that field service managers were always paid in
accordance with their contracts. These conditions occurred because HUD did not develop
national standard quality assurance procedures or a quarterly performance report but instead
allowed varied procedures across the four Homeownership Centers. As a result, HUD’s REO
properties may not have always been competitively valued, holding time may not have always
been minimized, sales may not have always achieved the highest net return, and properties may
have been assigned to field service managers that did not perform at a satisfactory level. In
addition, we estimated that HUD overpaid 6 field service managers $491,946 and underpaid 15
field service managers $985,582 from June 2011 to January 2012 and 1 field service manager
was underpaid $60,148 from January to February 2012.


    Asset Manager Contracts Were
    Not Always Enforced

                  Given HUD’s lack of standard national procedures, the individual procedures
                  developed by the four Centers were not adequate to ensure that the asset manager
                  contracts were always enforced 4. Specifically, we found

                      •    List prices were not always reduced in accordance with marketing plans,

                      •    Bids were approved that were below HUD’s flexible threshold,

                      •    Bids were improperly rejected, and

                      •    Bids were not always counter offered or forwarded for government
                           technical representative (GTR) approval.

                  The contracts require each asset manager to prepare and implement a marketing
                  plan that describes how they will meet the performance objectives of the contract.
                  The primary (performance) objectives for the asset managers are to ensure that (1)
                  properties are accurately and competitively valued, (2) sales achieve the highest
                  net return, (3) holding time is minimized, (4) sales create owner-occupant
                  opportunities, and (5) closing proceeds are properly accounted for and delivered
                  to HUD in a timely manner. Each marketing plan contains a price reduction
                  schedule that details the percentage of the appraised value at which properties will
4
 Details on the results of our review for each of the Centers are shown in appendix B (table 3 – Atlanta, table 4 –
Denver, table 5 – Philadelphia, and table 6 – Santa Ana).

                                                          5
                  be listed, the acceptable bid threshold percentages, and the bid threshold
                  percentages that determines when bids will be either counter offered or forwarded
                  for GTR approval. Marketing plans vary for each asset manager depending on
                  factors such as contract/geographic area, etc.

                  List Prices Were Not Always Reduced in Accordance with Marketing Plans

                  For 53 of the 120 properties reviewed, 5 the list prices were not reduced according
                  to the price reduction schedules in the asset managers’ marketing plan. The
                  marketing plans generally state that properties will be reanalyzed for price
                  reductions after they have been listed on the market from 30 to 45 days and
                  approximately every 30 days thereafter. While most of the marketing plans state
                  that a review of specified criteria, such as the number of bids received, would be
                  used to determine if a price reduction was warranted, 5 of the 23 marketing plans
                  did not state a review was to be performed and list prices would be reduced
                  according to the price reduction schedules.

                  Thirty six of the 53 properties should have been reanalyzed for price reductions
                  due to the lack of bid activity. For the 11 properties that had bid activity, the
                  number of bids and bid amount did not justify the asset managers not reducing the
                  list prices according to the price reduction schedules. Therefore, the asset
                  managers should have reduced the list prices for these 47 properties according to
                  the marketing plans. The remaining 6 properties had list prices that were lower
                  than the appropriate percentage of the appraised value (reduced too early). The
                  table below details the number of properties for each Center where the list price
                  was not reduced in accordance with the marketing plans.

                                                                                                             Santa
                                                                 Atlanta Denver Philadelphia
                    Price reductions                                                                          Ana
                                                                 Center Center    Center
                                                                                                             Center
                     First price reduction 6: 45 – 60 days           1           5               5              7
                     First price reduction6: 61 – 90 days            9           1               3              4
                     First price reduction: over 90 days             1           6               0              0
                     After first price reduction,
                     subsequent reductions were late                 0           0               3              2
                     according to marketing plans
                     List price lower than marketing plan
                                                                     1           1               3              1
                     percentage
                                     Total                          12          13              14              14

                  For example, we indentified a property that was first listed for sale on April 19,
                  2011, with the first price reduction occurring almost 3 months later on July 15,
                  2011 (87 days). According to the asset manager’s marketing plan, the property

5
  We determined that the price reductions did not follow the marketing plans only if the list price was not reduced 14
days or more according to the price reduction schedules.
6
  Also included are properties that sold and there was no price reduction.

                                                          6
                  should have been relisted with a price reduction of up to 10 percent of the
                  appraised value every 30 days. This property had no bids until it was listed on the
                  market for 91 days and the asset manager did not obtain a broker’s price opinion
                  to justify not reducing the list price after 30 days. When the asset manager
                  reduced the price, it did not follow the appropriate percentages in the marketing
                  plan. After 87 days, the list price was appropriately reduced to 82 percent of the
                  appraised value; however, it was reduced 2 days later to 66 percent of the
                  appraised value when it should not have been below 80 percent.

                  Only the Philadelphia and Santa Ana Centers had written procedures in place to
                  review the price reductions; however, all of the Centers stated that the asset
                  managers generally reduced the list prices according to their marketing plan. As a
                  result of the asset managers’ not reducing list prices according to their marketing
                  plans, properties we reviewed may not have been competitively valued, and the
                  holding time may not have been minimized.

                  Bids Were Approved That Were Below HUD’s Flexible Threshold

                  For 35 of the 120 properties reviewed, 7 bids were approved that did not meet the
                  flexible net threshold percentages established by HUD. When bids do not meet
                  the minimum acceptable net amount set by the asset managers, they are
                  automatically rejected by the P260 system. The asset managers can then forward
                  these bids to the GTRs for approval, and they may accept bids using flexible
                  thresholds. The flexible thresholds were provided to each Center to follow;
                  however, enforcement was varied and inconsistent, as bids were approved that did
                  not meet the stated thresholds. While HUD provides GTRs the authority to
                  approve bids below the thresholds, there are no defined criteria or procedures
                  detailing how and when this can occur and how it should be documented.

                    Difference between the flexible                                                            Santa
                                                                 Atlanta Denver Philadelphia
                    threshold and the net bid                                                                   Ana
                                                                 Center Center    Center
                    percentage7:                                                                               Center
                     Less than 20 percent                             0           5               2              2
                     20-29 percent                                    5           1               4              0
                     30-40 percent                                    4           2               2              0
                     More than 40 percent                             2           0               5              1
                                     Totals                          11           8               13              3

                  For example, we identified a property that was listed on the market for 73 days
                  with a bid that was approved at 14 percent of the appraised value and 17.5 percent
                  of the list price. According to the asset manager’s marketing plan, the bid
                  threshold percentage for 73 days on the market was 71.2 percent of the appraised
                  value and 89 percent of the list price. The P260 system initially rejected the bid
7
  For properties with a low list price, we considered the percentage of the gross bid instead of the net bid because in
these cases, a bid that met the list price would not meet the bid thresholds because of the minimum realtor
commissions.

                                                           7
                    because it did not meet the minimum acceptable thresholds, and notes in the
                    system stated that the bid was manually approved by HUD because it was aged
                    inventory with no offers. However, the flexible threshold was 62 percent of the
                    list price, and we identified four previous bids on the property (all within 45 days
                    of the accepted bid). Three of the bids were approximately 200 to 600 percent
                    higher than the approved bid that was eventually accepted.

                    The Atlanta, Denver, and Philadelphia Centers stated that bids that did not meet
                    the flexible thresholds could be accepted by the GTR based on external factors
                    such as when the property was aged inventory and had no bids. However, the
                    Centers did not have specific national, standardized written procedures in place
                    for accepting bids below the flexible thresholds or defining how many days on the
                    market would be considered aged inventory. As a result of HUD lacking national
                    standardized, specific procedures and approving bids that did not meet the flexible
                    thresholds, the highest net return for properties sold may not have always been
                    achieved.

                    Bids Were Improperly Rejected

                    For 21 of the 120 properties reviewed, bids that met the minimum bid threshold
                    percentages were improperly rejected by the P260 system. For these properties, it
                    took an average of 101 days to sell after the first acceptable bid was improperly
                    rejected and on average sold for $2,956 8 less. Some bids were improperly
                    rejected because the P260 system recommended an acceptable bid based only on
                    the threshold percentage of the list price and not the appraised value. Some of the
                    asset managers, specifically at the Santa Ana Center, had threshold percentages
                    based on the list price and appraised value while the asset managers at the other
                    Centers had threshold percentages based only on the list price. In other cases, the
                    correct acceptable bid thresholds from the marketing plans were not entered into
                    the P260 system. As a result of HUD improperly rejecting bids, the highest net
                    return for properties was not always achieved, and the holding time was not
                    minimized (see appendix B, table 1).

                    Bids Were Not Always Counter Offered or Forwarded for Government
                    Technical Representative Approval

                    For 36 of 120 properties reviewed, bids that met applicable thresholds were not
                    always counter offered or forwarded to the GTRs for approval. The GTRs do not
                    review bids that are rejected; it is the responsibility of the asset managers to
                    review the bids and forward them to the GTR for approval if they meet the
                    applicable threshold. As a result of the asset managers’ not submitting a counter
                    offer or forwarding bids that met certain thresholds to the GTR for approval, the
                    holding time may not have always been minimized.

                    For example, a bid for a property listed for 171 days was submitted and properly
                    rejected because the net to HUD was below the minimum acceptable amount.
8
    See appendix B, table 1.

                                                      8
                 However, the bid should have been forwarded to the GTR for approval because it
                 met the threshold percentage for GTR approval. The bid was 69.6 percent of the
                 appraised value (0.4 percent lower than the acceptable bid threshold), and the
                 threshold percentage for GTR approval was 65 percent.

    Field Service Manager
    Contracts Were Not Always
    Enforced

                 The review of 125 HUD REO properties listed on the market between February
                 and May 2012 across the four Centers identified that the field service managers
                 did not properly maintain properties and conduct routine inspections within the
                 required timeframes. Although the Centers were already aware of these issues,
                 HUD did not implement a quarterly performance report to assign properties to the
                 field service managers based on performance. Instead, it allowed the field service
                 managers to submit voluntary price reductions and, initiated in October of 2011,
                 assigned more properties to field service managers based solely on the price of
                 services, disregarding performance. As a result, more properties may have been
                 assigned to field service managers that had lower prices but were not performing
                 at a satisfactory level. HUD has indicated plans to implement a performance
                 scorecard to uniformly assess the performance of field service managers.

                 OIG Conducted Property Inspections

                 We inspected 125 properties in the Atlanta, GA, Kansas City, MO, Los Angeles,
                 CA, Philadelphia, PA, and Phoenix, AZ, areas and determined that 75 properties
                 were not properly maintained. The field service manager contract states that
                 properties must remain in ready-to-show condition until sold; however,

                     •   42 properties had yards that were not maintained (for example, tall
                         weeds),

                     •   30 properties were not clean (for example, dirty floors or carpets, trash or
                         debris, dead insects, mold or mildew, and bad odor),

                     •   23 properties had trash or debris in the yards or front entrance,

                     •   3 properties had an active water leak,

                     •   21 properties had broken or unapproved boarded doors or windows, 9 and

                     •   8 properties were not secure.



9
 According to HUD officials, field service managers are allowed to temporarily board doors and windows only with
GTR approval. We determined that the properties identified had boarded doors or windows for an extended period.

                                                       9
                                                                                                  Santa
                                                                    Atlanta Denver Philadelphia
                        Maintenance deficiency                                                     Ana
                                                                    Center Center    Center
                                                                                                  Center
                        Not secure                                       4    2          1          1
                        Active water leak                                0    3          0          0
                        Broken or unapproved boarded
                                                                         2    12         5          2
                        doors or windows
                        Interior not clean                                5   17         4          4
                        Yard not maintained                              14    9        13          6
                        Trash or debris outside                           0    9         7          7

                     All of the Centers conducted inspections of properties to determine whether they
                     were properly maintained; however, the frequency at which the inspections
                     occurred was inconsistent. For example, the Philadelphia Center inspected
                     properties every quarter while the Denver Center only inspected properties one
                     time each year because of limited travel funds.

                     Routine Inspections Were Not Conducted in a Timely Manner

                     For 100 of the 125 properties reviewed, the field service managers did not
                     conduct routine inspections in a timely manner. The field service manager
                     contract states that, at a minimum, the properties must be inspected once every 2
                     weeks. In some cases, the routine inspections were late by only 1 day, but in
                     other cases, they were late by as many as 33 days. The table below illustrates, by
                     Center, instances identified in which routine inspections were not conducted in a
                     timely manner.

                                                                                                  Santa
                       Number of days completed after Atlanta Denver Philadelphia
                                                                                                   Ana
                          the previous inspection:    Center Center    Center
                                                                                                  Center
                       15 to 19 days                                     18   9          8          13
                       20 to 29 days                                     10   6          9          18
                       30 to 39 days                                      1   0          4           1
                       40 days or more                                    0   0          0           3
                                        Total                            29   15        21         35


                     Inappropriate Payments Were Made to Field Service Managers

                     Field service managers were paid a monthly fee even if the required inspections
                     were not conducted and uploaded into the P260 system. During the audit, HUD
                     created a report 10 to identify missed routine inspections that the field service
                     managers were required to perform, issuing letters requesting reimbursement for

10
     HUD created this report on its own, not as a result of our audit.

                                                             10
                    the routine inspections that were not conducted between June 2011 and February
                    2012. For example, during this period, one field service manager did not conduct
                    or upload 15,171 of the 36,462 (42 percent) required routine inspections, and
                    HUD requested reimbursement of $3.1 million. HUD has entered into
                    negotiations with field service managers to collect reimbursements for inspections
                    that were required but not performed.

                    HUD Identified Contractors With Performance Issues

                    Some of the Centers 11 had already determined that field service managers were
                    not maintaining properties in a ready-to-show condition and conducting routine
                    inspections every 2 weeks. For example, the Santa Ana Center inspected 29
                    properties in September 2011 and determined that 47 percent were not in “broom-
                    swept” condition and had debris and other health and safety issues. One of the
                    properties inspected on September 27, 2011, had comments such as “filthy,
                    broken window, roaches, and hair in sink,” and they noted that the last inspection
                    date by the field service manager was only 2 days earlier. The Center also began
                    reviewing routine inspections in October 2011 and provided the results to the field
                    service manager; however, performance had not improved. The table below
                    illustrates one example of the performance issues noted for one field service
                    manager.

                                                                Percentage not
                                 Date of review              performed in a timely
                                                                   manner
                                 October 5, 2011                     25%
                               November 8, 2011                      65%
                              November 18, 2011                      36%
                               December 2, 2011                      72%
                              December 22, 2011                      51%
                                January 12, 2012                     40%
                                January 25, 2012                     32%

     HUD Underpaid M&M III
     Contractors

                    HUD underpaid 1 field service manager for 2 months (January and February
                    2012) and 21 field service managers from June 2011 to January 2012.

                    Incorrect Management Fees Paid to 21 Field Service Managers

                    Property management fees were not always paid to 21 field service managers in
                    accordance with their contracts because they were paid based on the date of
                    assignment for properties rather than the actual date of service. HUD officials

11
     The Denver, Philadelphia, and Santa Ana Centers.

                                                        11
                 stated that the field service managers should be paid based on the actual date of
                 service for property management. Therefore, field service managers that had
                 different property management fees for option year 1 or submitted a voluntary
                 price reduction that was effective October 2011 were not paid the correct amount.
                 We estimated that HUD overpaid 6 field service managers $491,946 and
                 underpaid 15 field service managers $985,582 from June 2011 to January 2012,
                 for a net underpayment to the 21 field service managers of $493,636 12. HUD
                 officials identified 13 that the fee calculation methodology was incorrect and made
                 the necessary adjustments in February 2012 for future bills.

                 Underpaid Field Service Manager After Contract Expansion

                 A field service manager under the jurisdiction of the Santa Ana Center was
                 underpaid for 2 months (January to February 2012) of its contract due to
                 confusion regarding the price of services after a contract transfer and expansion
                 occurred. When the funds for the Santa Ana Center contract were fully expended,
                 the contract for the same contractor with the Atlanta Center was modified to cover
                 the Santa Ana Center’s contract. However, HUD incorrectly interpreted the
                 modified contract, which led to the contractors being paid at the base year pricing
                 rather than option year 1 pricing. HUD agreed with us and initiated adjustments
                 to the bills. We estimated that the Santa Ana Center underpaid the field service
                 manager $60,148 14 for the 2 months.

     Other Asset Manager Contract
     Requirements Were Not Met

                 Asset managers did not always update appraisals every 6 months and did not
                 always perform inspections in a timely manner as required by the asset manager
                 contracts.

                 Appraisals Were Not Always Updated Timely

                 For 19 of the 120 properties reviewed, appraisals were not updated every 6
                 months as required by the asset manager contracts. The asset manager contract
                 states that a new appraisal shall be obtained every six months until the property is
                 sold. Additionally, for 16 of the 19 properties that did not have appraisals
                 updated timely, the asset managers did not obtain a brokers price opinion to
                 ensure that the properties were accurately valued. Even though the Philadelphia
                 and Santa Ana Centers were the only Centers that had written procedures in place

12
   We obtained the property management billing reports from the P260 system to identify properties that were paid
incorrect property management fees (HUD-owned vacant and custodial properties) from June 1, 2011 to May 31,
2012. We used this data to calculate an estimated amount that HUD underpaid or overpaid to field service
managers. The estimate does not include fees for partial months.
13
   HUD identified this on its own, not as a result of our audit.
14
   We obtained the property management billing reports from the P260 system to identify properties that were paid
incorrect amounts from January 1 to February 29, 2012. We used this data to calculate an estimated amount that
HUD underpaid the field service manager. The estimate does not include fees for partial months.

                                                        12
                    to review if appraisals were updated every six months, all of the Centers had
                    properties with appraisals that were not updated as required 15.

                    Inspections Were Not Always Performed Timely

                    According to the asset manager contracts, the asset managers are required to
                    conduct three inspections for each property they are assigned. The first required
                    inspection (initial inspection) must be completed no later than 2 days from
                    notification of the field service manager’s completion of initial services, and they
                    must upload the inspection report into the P260 system within 2 days after the
                    inspection. The second required inspection (prior-to-list) must be completed
                    before listing properties for sale. The last required inspection (ready-to-close)
                    must be completed no sooner than 5 days before closing.

                                                                                                Santa
                                                          Atlanta Denver Philadelphia
                                      Inspection                                                 Ana
                                                          Center Center    Center
                                                                                                Center
                       Initial inspection
                         • Not conducted                     0          0            5              0
                         • Completed 5 days or more
                                                             4          2            5              2
                              after assigned
                       Prior to list inspection
                         • Not conducted                     3          1            7              0
                         • Completed after property
                                                             2          1            1              0
                              was listed
                       Ready-to-close inspection
                         • Not conducted                     5          0            2              1
                         • Completed 8 days or more
                                                             1          1            2              5
                              before closing
                                      Totals                15          5            22             8

                    During the course of the audit, HUD created a report to identify missed required
                    inspections10. A letter was sent to the appropriate asset managers requesting
                    reimbursement for the inspections that were not provided between June 2011 and
                    March 2012.

     Other Field Service Manger
     Contract Requirements Were
     Not Always Met

                    The field service managers did not always perform property inspections in a
                    timely manner and did not complete health and safety repairs in 1 day as required
                    by the field service manager contracts for 13 properties that had a health and

15
     See appendix B, tables 3 through 6.

                                                     13
                 safety work notification. After properties are acquired by HUD, the field service
                 managers are required to conduct a comprehensive property inspection and
                 complete the HUD property inspection report, which includes three parts. The
                 first two parts must be uploaded into the P260 system within 2 days of assignment
                 and the third part 5 days later. For 8 of the 125 properties reviewed, the field
                 service managers did not perform the first two parts of the inspection within 4
                 days or the third part within 8 days.

     HUD Lacked Standard Policies
     and Procedures

                 HUD did not develop standard quality assurance procedures until two years after
                 the inception of the M&M III program but instead relied on each Homeownership
                 Center to develop its own procedures. According to the asset manager and field
                 service manager contracts, the GTR would monitor contractor performance based
                 on HUD’s quality assurance procedures and issue a quarterly performance report.
                 The contracts indicated that performance below a satisfactory level might impact
                 field service managers’ assignments.

                 At the start of the M&M III program, HUD entered into a contract with an
                 oversight monitor to develop procedures to monitor the performance of asset and
                 field service managers; however, the procedures did not meet HUD’s needs, and
                 the contract was terminated. Responsibility was, therefore, placed on each
                 Homeownership Center to develop its own procedures. This situation resulted in
                 procedures that were not consistent across the four Centers, increasing risk to the
                 M&M III program. HUD implemented standard asset manager and field service
                 manager monitoring plans on June 1, 2012, 16 and plans to implement a
                 performance scorecard. HUD’s policies and procedures should ensure

                      •   Asset managers reduce the list price of properties according to each asset
                          manager’s marketing plan, counter offer all bids that meet the counter
                          offer thresholds, forward bids to the GTR that meet close bid thresholds;

                      •   Homeownership Centers follow the flexible net offer threshold and
                          establish procedures for when the GTRs may accept bids below the
                          flexible thresholds; and

                      •   Asset managers update appraisals every six months or modify its asset
                          manager contracts regarding this requirement.




16
  Because the monitoring plans were not implemented until the end of the audit, we did not review the plans to
determine whether they were adequate.

                                                        14
     Conclusion

                    The varied and inconsistent procedures developed by each of the four
                    Homeownership Centers were not adequate to ensure that the asset and field
                    service manager contracts were always enforced. This condition occurred
                    because HUD did not develop national standard procedures and did not
                    implement a performance scorecard to assign properties to field service mangers
                    based on performance. As a result, HUD’s REO properties may not have always
                    been competitively valued, holding time may not have always been minimized,
                    sales may not have always achieved the highest net return, and properties may
                    have been assigned to contractors that did not perform at a satisfactory level. In
                    addition, we estimated that, between June 2011 and January 2012, HUD
                    underpaid 15 field service managers $985,582, 6 were overpaid $491,946, and 1
                    was underpaid $60,148 from January to February 2012.

     Recommendations

                    We recommend that the Deputy Assistant Secretary for Single Family Housing:

                    1A.     Develop and implement standardized policies and procedures for the
                            oversight of REO M&M III asset manager and field service manager
                            contracts that apply to all four Homeownership Centers. 17 Procedures
                            should include controls to address the findings as stated in the report.

                    1B.     Develop and implement procedures to ensure that field service managers
                            are paid only for routine inspections that are conducted. Procedures
                            should include a quarterly review of missed inspections and a process to
                            obtain reimbursement from field service managers that do not perform the
                            required inspections.

                    1C.     Develop and implement procedures for the P260 system to ensure that
                            bids meeting the applicable thresholds based on the listed and appraised
                            values are accepted.

                    1D.     Review the P260 system and its related controls to determine what areas,
                            if any, require additional controls to ensure proper oversight of REO
                            M&M III property disposition (such as creating exception reports, etc.).

                    1E.     Finalize and implement the field service manager scorecard to ensure that
                            properties are assigned to contractors based on performance.

                    1F.     Calculate and reimburse or request repayment for the field service
                            managers that were underpaid or overpaid. We estimated that field service



17
     This recommendation is in process. However, the audit did not review the adequacy of the new procedures.

                                                         15
                         managers were underpaid $1,045,730 18 ($985,582 +60,148 19) and
                         overpaid $491,946. 20

                 1G.     Ensure that HUD receives repayment for routine inspections that were not
                         conducted by field service managers between June 2011 and February
                         2012 and ensure that repayment is received for inspections that were not
                         provided by asset managers between June 2011 and March 2012.




18
   See appendix B, table 2.
19
   See section “Underpaid Field Service Manager After Contract Expansion.”
20
   See appendix B, table 2.

                                                      16
                               SCOPE AND METHODOLOGY

Our review of asset manager contracts generally covered HUD REO properties that were
acquired from August 1, 2010, to January 31, 2012, and our review of field service manager
contracts generally covered HUD REO properties that were listed on the market from February 1
to May 31, 2012. We performed our fieldwork from January to July 2012 at the Atlanta, Denver,
Philadelphia, and Santa Ana Homeownership Centers.

To accomplish our objectives, we

       •   Reviewed the performance work statements in the asset manager and field service
           manager contracts,

       •   Reviewed the information in the P260 system for each property selected in our samples,

       •   Reviewed the procedures in place to monitor the performance of asset managers and field
           service managers at the Homeownership Centers, and

       •   Interviewed Homeownership Center officials.

We used computer-processed data maintained by HUD in its information systems that provides
case level data on single family housing properties and loans (Single Family Data Warehouse) to
identify all properties acquired by HUD. We did not rely on these data to reach our conclusions;
therefore, we did not assess the reliability of the data.

To determine whether the asset manager contract requirements were met, we selected a
nonstatistical sample of 120 properties (30 at each Homeownership Center) that were acquired
between August 1, 2010, and January 31, 2012. The sample represented properties from all 23
asset manager contracts. During this period, 138,802 properties were acquired and 104,762 were
conveyance type properties that had closed. The sample was selected based on the following
factors:

       •   Properties with an original list price that was lower than the appraised value
           (approximately 10 for each Center),
       •   Properties with a low percentage of the sales price to the last list price (approximately 10
           for each Center),
       •   Properties that had a high number of days in HUD’s inventory (approximately 10 for
           each Center), and
       •   Properties from all asset manager contracts.

To determine whether the field service manager contract requirements were met, we selected a
nonstatistical sample of 125 properties that were listed on the market from January 1 to May 31,
2012. From August 1, 2010, to May 31, 2012, 160,665 properties were acquired; however, we
selected properties that were listed for sale only by verifying the properties’ status in P260.21
21
     Two properties were held off market.

                                                    17
The sample was randomly selected based on properties that were listed on the market in the
Atlanta, GA, Kansas City, MO, Los Angeles, CA, Philadelphia, PA, and Phoenix, AZ, areas.
The sample represented properties from 18 of the 31 field service manager contracts.

To estimate the amount HUD underpaid or overpaid to field service managers, we obtained the
property management billing reports from the P260 system and identified properties that were
paid incorrect amounts for property management fees (HUD-owned vacant 22 and custodial
properties 23) from June 1, 2011, to May 31, 2012, and January 1 to February 29, 2012. We
determined the correct property management fees for these time periods from the field service
manager contracts and calculated the estimated amount the field service managers were
underpaid or overpaid. We estimated that 15 field service managers were underpaid more than
$985,582 from June 2011 to January 2012 24, 6 were overpaid $491,946 from June 2011 to
January 201224, and 1 was underpaid $60,148 from January to February 2012. 25

We used computer-processed data maintained in the P260 system. We assessed the reliability of
HUD’s P260 system data by (1) performing limited testing to determine whether data were
supported by reports uploaded into the system, (2) reviewing information about the data and the
system that produced them, and (3) interviewing HUD officials knowledgeable about the data.
We considered the data to be sufficiently reliable for the purposes of this report.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

We provided the discussion draft report to HUD on August 10, 2012 and received informal
written comments on August 24, 2012. The discussion draft was revised and reissued to HUD
on August 30, 2012. Based on the revised discussion draft, HUD declined to provide a formal
written response.




22
   HUD-owned properties are properties that HUD owns by reason of payment of an insurance claim or another
acquisition method.
23
   Custodial properties are borrower owned properties that serves as security for a secretary-held mortgages
(including a home equity conversion mortgage), which HUD, through the contractor, has taken possession of
following default and vacancy or abandonment.
24
   See table 2, appendix B.
25
   The estimate does not include fees for partial months.

                                                       18
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

                  •   Policies and procedures intended to ensure that the asset manager and field
                      service manager contract requirements were met (finding 1).

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

                  •   HUD did not implement adequate procedures to ensure consistent and
                      adequate enforcement of REO M&M III asset and field service managers'
                      contracts (finding 1).




                                                 19
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                 Recommendation                           Funds to be put
                                        Ineligible 1/
                     number                               to better use 2/
                              1F             $491,946          $1,045,730
                            Total            $491,946          $1,045,730


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations. The overpayments to the field service managers are ineligible
     because HUD paid fees that were in excess of the amounts specified in the field service
     manager contracts.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. If HUD implements our recommendations, it will pay the
     field service managers the appropriate amounts for services that were provided for HUD
     REO properties. The costs for these services were agreed to by HUD and are specified in
     the contract with each field service manager. Funds that should have been obligated and
     expended for the management and marketing of HUD REO properties will be disbursed
     as intended, resulting in correct past and future payments. Additionally, identification
     and payment of underpayments will result in potentially identifying future reimbursement
     errors and contribute to minimizing the risk to the REO program.




                                            20
Appendix B

         DETAILED RESULTS OF OIG’S REVIEW SAMPLE

Table 1: The table below lists the properties that had bids that met the minimum bid threshold
         percentages but were improperly rejected by the P260 system.

     Net amount of        Date of       Net amount        Date of      Difference
                                                                                      Difference
       improperly       improperly      of accepted      accepted       in days
                                                                                      in amount
       rejected bid     rejected bid        bid             bid
 1   $        15,157     06/05/2011    $       7,138    12/19/2011         197       $     (8,019)
 2            34,125     01/25/2011           13,100    12/16/2011         325            (21,025)
 3            52,722     10/27/2011           48,843    11/28/2011          32             (3,879)
 4           139,900     03/01/2011          158,015    03/31/2011          30              18,115
 5           155,100     02/02/2011          136,300    04/21/2011          78            (18,800)
 6            70,500     09/28/2011           82,800    10/04/2011           6              12,300
 7            75,200     03/30/2011           72,346    04/28/2011          29             (2,854)
 8            41,300     08/18/2011           49,632    08/26/2011           8               8,332
 9            68,150     04/12/2011           31,020    08/03/2011         113            (37,130)
10            38,540     08/09/2011           34,968    12/21/2011         134             (3,572)
11            61,100     08/29/2011           61,425    11/01/2011          64                 325
12            95,550     10/17/2011           96,200    10/20/2011           3                 650
13            90,804     10/15/2011          109,267    11/18/2011          34              18,463
14           164,700     03/12/2011          154,066    09/22/2011         194            (10,634)
15            56,912     08/22/2011           53,872    11/02/2011          72             (3,040)
16            60,090     01/10/2011           56,420    09/22/2011         255             (3,670)
17            53,486     09/24/2011           46,400    12/27/2011          94             (7,086)
18           136,500     01/06/2011          128,600    10/16/2011         283             (7,900)
19           115,621     02/15/2011          123,140    02/22/2011           8               7,539
20           141,050     03/28/2011          137,417    09/08/2011         164             (3,633)
21   $        48,230     09/24/2011    $      51,700    09/25/2011           1       $       3,470
                       Average difference                                  101       $     (2,956)




                                               21
 Table 2: The table below lists the field service managers that were underpaid or overpaid. We
          obtained the property management billing reports from the P260 system to identify
          properties that were paid incorrect amounts for property management fees (HUD-
          owned vacant and custodial properties) from June 1, 2011, to May 31, 2012. We then
          this used data to calculate an estimated amount that HUD underpaid field service
          managers25.

                                           Amount              Amount               Total amount
                                         underpaid or        underpaid or           underpaid or
Field service manager            Area     overpaid –       overpaid – HUD-            overpaid
                                           custodial        owned vacant
                                          properties          properties
Asset Management Specialists      2S    $         4,032    $          161,721    $         165,753
A2Z Field Services                1A           (24,483)             (101,115)            (125,598)
Asset Management Specialists      1A              3,509                85,915               89,424
Innotion Enterprises              1A                775                48,920               49,695
Innotion Enterprises              2A                570                40,788               41,358
CWIS LLC                          2A          (158,088)                56,232            (101,856)
PK Management Group               2A              1,779                91,013               92,792
Asset Management Specialists      1P                626                43,740               44,366
Asset Management Specialists      3P              6,307                31,752               38,059
A-Sons Construction               1P            (1,480)              (91,500)             (92,980)
A-Sons Construction               3P              2,871                30,704               33,575
IEI-Tidewater                     1P            (5,041)              (29,026)             (34,067)
SIGMA Construction                1P                368                29,055               29,423
A2Z Field Services                2P           (10,994)              (34,622)             (45,616)
Innotion Enterprises              2P                835                34,944               35,779
Asset Management Specialists      1D                367                65,815               66,182
Asset Management Specialists      2D              1,592                82,454               84,046
Asset Management Specialists      3D              1,567                45,688               47,255
SIGMA Construction                1D              2,856               135,418              138,274
A2Z Field Services                2D           (17,738)              (74,091)             (91,829)
First Preston                     3D    $           517    $           29,084    $          29,601
                        Total estimated overpayment                             $        (491,946)
                        Total estimated underpayment                             $        985,582
                               Net underpayment                                  $        493,636




                                               22
    Table 3: The table below lists the properties that did not meet the asset manager contract
             requirements for the Atlanta Homeownership Center.

                    List prices not reduced            Bids approved that                           Bids not
                 according to marketing plans          were below HUD’s              Bids           counter-          Appraisal
  Case
                                                        flexible threshold       improperly        offered or           (days
 number
               Price reductions     Bid activity 26      (net bid % / days         rejected      forwarded for       updated late)
                                                               listed)                           GTR approval
137-3962417             --                --                     --                    --             Bid 22                 --
501-7209511             --                --                     --                    --             Bid 6                  --
                 76 days to 1st      2 bids (75%
381-4915315                                                9% / 153 days               --                --                  --
                price reduction       and 80%)
                 63 days to 1st
381-8449201                             No bids           10% / 144 days               --                --                  --
                price reduction
                 78 days to 1st
381-7363684                             No bids           13% / 153 days               --                --                  --
                price reduction
                 91 days to 1st      5 bids (19%
137-1116826                                               10% / 170 days               --              Bid 2                 --
                price reduction        to 64%)
                 82 days to 1st
381-8105401                             No bids           15% / 156 days               --                --                  --
                price reduction
011-4803882             --                 --              28% / 92 days               --                --                  --
381-7226514             --                 --              30% / 55 days               --                --                  --
094-5107146             --                 --              37% / 82 days               --                --                  --
093-6046741             --                 --              39% / 78 days               --                --                  --
381-6916841             --                 --              40% / 53 days               --                --                  --
                 62 days to 1st
101-9802695                          1 bid (100%)                --                    --             Bid 18                 --
                price reduction
                 60 days to 1st
461-4445387                             No bids                  --                    --                --                  --
                price reduction
                 78 days to 1st
151-3239001                             No bids           26% / 212 days            Bid 14               --                  --
                price reduction
                 62 days to 1st      7 bids (67%
381-8167940                                                      --                    --                --                  --
                price reduction      to 102%) 27
                    4th price
                                     n/a – reduced
101-7976775       reduction 34                                   --                  Bid 2             Bid 3               14 days
                                         early
                   days early
                 72 days to 1st
011-5022658                             No bids                  --                    --              Bid 5               57 days
                price reduction
137-3201769             --                 --                    --                   --              Bid 2                   --
092-9572254             --                 --                    --                 Bid 71            Bid 17               41 days
                 87 days to 1st
501-4877077                             No bids                  --                    --                --                42 days
                price reduction
095-0218530             --                 --                    --                    --              Bid 5                 --
                       12                 12                     11                    3                 9                   4




    26
       For tables 3, 4, 5, and 6, this column shows the bid activity (and range of gross bid percentages) when the
    properties should have been reanalyzed for a price reduction.
    27
       The marketing plan for this property did not state that a review of specific criteria, such as the number of bids
    received, would be performed and list prices would be reduced according to the price reduction schedules.

                                                               23
          Table 4: The table below lists the properties that did not meet the asset manager contract
                   requirements for the Denver Homeownership Center.

              List prices not reduced according to        Bids approved that                     Bids not counter-
                                                                                        Bids                           Appraisal
  Case                  marketing plans                   were below HUD’s                          offered or
                                                                                    improperly                       (days updated
 number                                            26      flexible threshold                     forwarded for
              Price reductions      Bid activity                                      rejected                           late)
                                                        (net bid % / days listed)                 GTR approval
                121 days to 1st
271-9713908                            No bids                     --                   --              --                --
                price reduction
052-3574926            --                 --                      --                    --            Bid 11              --
511-0190358            --                 --                      --                    --            Bid 2               --
492-7579338            --                 --                      --                    --            Bid 7               --
031-3027882            --                 --                20% / 198 days              --              --                --
                 47 days to 1st
031-3214670                            No bids              28% / 120 days              --              --                --
                price reduction
493-8896277            --                 --                33% / 248 days              --              --                --
493-8942024            --                 --                33% / 126 days              --              --                --
493-8262363            --                 --                35% / 198 days              --              --                --
                 54 days to 1st
421-3962655                            No bids              36% / 129 days              --              --                --
                price reduction
                 53 days to 1st
052-4286327                            No bids                     --                   --              --                --
                price reduction
                 60 days to 1st
031-3474285                            No bids              40% / 227 days              --              --                --
                price reduction
491-8982707            --                 --                43% / 143 days              --              --                --
                 55 days to 1st
221-3808709                            No bids                     --                   --              --                --
                price reduction
                 90 days to 1st
422-2327433                            No bids                     --                   --              --                --
                price reduction
              5th price reduction   n/a – reduced
291-3436572                                                        --                   --            Bid 1               --
                 23 days early          early
                 98 days to 1st
271-7211055                          1 bid (40%)                   --                   --              --             16 days
                price reduction
                115 days to 1st
492-7432845                            No bids                     --                   --              --                --
                price reduction
                124 days to 1st
271-9312888                            No bids                     --                   --              --             211 days
                price reduction
                111 days to 1st
161-2214121                            No bids                     --                   --              --             156 days
                price reduction
                 91 days to 1st
495-7803491                            No bids                     --                   --              --                --
                price reduction
492-8472160            --                 --                       --                   --            Bid 6               --
                      13                 13                        8                    0               5                 3




                                                                 24
          Table 5: The table below lists the properties that did not meet the asset manager contract
                   requirements for the Philadelphia Homeownership Center.

                      List prices not reduced according to               Bids approved that                          Bids not      Appraisal
                                                                                                       Bids
  Case                          marketing plans                          were below HUD’s                        counter-offered     (days
                                                                                                   improperly
 number                                                                   flexible threshold                    or forwarded for    updated
                                                             26                                      rejected
                  Price reductions            Bid activity             (net bid % / days listed)                 GTR approval         late)
442-2278845                --                       --                               --                --            Bid 5            --
                   68 days and no
413-4523969                                      No bids                             --                --              --             --
                   price reduction
                  Reduced to 63%
411-3961061                                n/a – reduced early                       --                --            Bid 6            --
                    97 days early
548-4317659                --                       --                               --              Bid 27            --             --
                 58 days to 1st price
251-3717332                                      No bids                             --                --              --           85 days
                      reduction
541-8141625                --                       --                               --              Bid 8             --             --
                 65 days to 1st price
412-4920866                                      No bids                     1% / 92 days              --              --             --
                      reduction
412-5466643               --                        --                      1% / 118 days              --            Bid 1            --
                 84 days to 1st price                             27
412-4885945                               4 bids (59% to 85% )              1% / 141 days              --            Bid 2            --
                      reduction
                                                                               28
261-7445720                --                       --                    13% / 203 days               --              --             --
                 46 days to 1st price
263-3952030                                      No bids                  11%28 / 272 days             --              --             --
                      reduction
441-5796447                --                       --                       29% / 48 days             --              --             --
412-5328349                --                       --                       23% / 46 days             --              --             --
262-1049968                --                       --                      50%28 / 25 days            --              --             --
                 1st price reduction
541-7197300                                n/a – reduced early              36% / 61 days              --              --             --
                    15 days early
                                                                                28
261-7685738                --                        --                     50% / 21 days              --              --             --
374-4604362                --                        --                         --                     --              --             --
                                        3 bids (36% to 54%) from
                 7th price reduction    4th price reduction to when
351-3076167                                                                          --                --              --             --
                     71 days late        the property should have
                                        been reanalyzed (to 30%)
                                           14 bids (20% to 53%)
                 2nd price reduction    from 1st price reduction to
263-4369457                                                               21%28 / 396 days             --              --           14 days
                     21 days late        when the property should
                                           have been reanalyzed
                 2nd price reduction
541-7842042                                      No bids                             --                --            Bid 5            --
                     23 days late
                 57 days to 1st price
241-7714259                                      No bids                             --              Bid 46            --             --
                      reduction
                  Reduced to 81%
413-4587929                                n/a – reduced early                       --                --              --             --
                    28 days early
                 54 days to 1st price
261-6272389                                3 bids (53% to 79%)                       --                --            Bid 21           --
                      reduction
261-8901244               --                        --                    57%28 / 119 days             --              --             --
                 57 days to 1st price
371-3652758                                    1 bid (58%)                           --                --              --             --
                      reduction
411-4088062               --                        --                      69% / 53 days              --            Bid 40        194 days
                         14                         14                               13                3               7              3

          28
               Gross bid was used because this was a property with a low value.

                                                                       25
        Table 6:           The table below lists the properties that did not meet the asset manager contract
                           requirements for the Santa Ana Homeownership Center.

               List prices not reduced according to       Bids approved that
                                                                                             Bids not counter-
                         marketing plans                  were below HUD’s          Bids                           Appraisal
  Case                                                                                          offered or
                                                           flexible threshold   improperly                       (days updated
 number                                              26
                                                                                              forwarded for
              Price reductions        Bid activity          (net bid % / days     rejected                           late)
                                                                                              GTR approval
                                                                  listed)
              2nd price reduction
431-4505103                              No bids                    --            Bid 1             --                --
                  20 days late
               Reduced to 80%
561-8473969                         n/a – reduced early             --            Bid 7           Bid 11              --
                 26 days early
561-8542696            --                   --                      --            Bid 6           Bid 3               --
197-3528113            --                   --                      --                            Bid 5               --
561-9240749            --                   --                      --              --            Bid 6               --
                 87 days to 1st
048-4741162                              No bids                    --            Bid 4           Bid 3               --
                price reduction
332-4501285            --                   --                     --             Bid 1           Bid 7               --
043-7737960            --                   --               18% / 73 days         --             Bid 1               --
023-1609905            --                   --                     --              --             Bid 3               --
023-1783591            --                   --                     --              --              --              13 days
561-9215977            --                   --              42% / 153 days         --              --                 --
023-3487331            --                   --                     --              --              --              11 days
045-6444917            --                   --                     --             Bid 3           Bid 1               --
                 49 days to 1st
023-2781516                              No bids                    --              --              --             12 days
                price reduction
045-6475779            --                   --              54% / 73 days           --              --                --
                 52 days to 1st
562-2034593                              No bids                    --              --              --
                price reduction
                 45 days to 1st
023-2051944                              No bids                    --              --              --             17 days
                price reduction
                 65 days to 1st
332-4518490                              No bids                    --            Bid 4           Bid 12              --
                price reduction
                 52 days to 1st
561-8230978                              No bids                    --            Bid 3             --                --
                price reduction
048-4548470            --                   --                      --            Bid 7             --             75 days
              2nd price reduction
561-8560500                              No bids                    --            Bid 2             --                --
                  61 days late
                 62 days to 1st
431-4527167                              No bids                    --            Bid 5           Bid 4            142 days
                price reduction
                 54 days to 1st
022-1931864                              No bids                    --            Bid 3           Bid 2            17 days
                price reduction
                 70 days to 1st
332-4747742                              No bids                    --            Bid 2             --                --
                price reduction
                 56 days to 1st
022-2044309                              No bids                    --            Bid 3           Bid 2            17 days
                price reduction
                 60 days to 1st      2 bids (71% and
048-4736293                                                         --            Bid 3           Bid 7               --
                price reduction           100%)
022-1867868            --                    --                     --              --            Bid 1            16 days
                      14                    14                      3              15               15                9




                                                               26
